<html>
<title> - BRIGHT LIGHTS IN THE CITIES: PATHWAYS TO AN ENERGY-EFFICIENT FUTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
  BRIGHT LIGHTS IN THE CITIES: PATHWAYS TO AN ENERGY-EFFICIENT FUTURE 

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2007

                               __________

                           Serial No. 110-17


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-244 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



































                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     1
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, prepared statement..............     2
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
Hon. Norman Dicks, a Representative in Congress from the State of 
  Washington, opening statement..................................     7
Hon. Jim McDermott, a Representative in Congress from the State 
  of Washington, opening statement...............................     8

                               Witnesses

Hon. Michael Bloomberg, Mayor, New York City.....................     9
    Written Testimony............................................    12
    Answers to submitted questions...............................    67
Hon. Douglas Palmer, Mayor of Trenton, New Jersey................    15
    Written Testimony............................................    17
Hon. Manuel Diaz, Mayor of Miami, Florida........................    22
    Written Testimony............................................    24
Hon. Greg Nickels, Mayor of Seattle, Washington..................    29
    Written Testimony............................................    31
    Answers to submitted questions...............................    80

                           Submitted Material

Written Testimony of Antonio R. Villaraigosa, Mayor of the City 
  of Los Angeles.................................................    87


  BRIGHT LIGHTS IN THE CITIES: PATHWAYS TO AN ENERGY-EFFICIENT FUTURE

                              ----------                              


                        FRIDAY, NOVEMBER 2, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2:30 p.m., in the 
Olympic Room, Edgewater Hotel, Seattle, Washington, the Hon. 
Jay Inslee [member of the committee] presiding.
    Members Present: Representatives Inslee, Sensenbrenner, and 
Walden.
    Also Present: Representatives Dicks and McDermott.
    Mr. Inslee. Committee will come to order.
    Welcome to sunny Seattle. We hope you're all enjoying this 
glorious day and will enjoy what I think will be a very 
interesting hearing.
    Before I make an opening statement, I have a couple 
procedural matters I need unanimous consent on so we can have 
our fearless Chairman Ed Markey's statement entered into the 
record and all other select committees'.
    Ed was good enough to get this committee out here. 
Unfortunately, he tore his Achilles heel doing a 360 dunk in 
Boston, so he couldn't quite make it. So I would ask for 
unanimous consent for that.
    [The statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Inslee. And without objection, so ordered.
    I would also like to ask consent to allow our local 
talents, Norm Dicks and Jim McDermott, to join us and acquire 
the same privileges as other members of the committee.
    And without objection, so ordered.
    I'll yield myself 5 minutes for an opening statement.
    First, I want to welcome you all to our hearing today.
    I think that it is the right place, it is the right time, 
and it is the right group of people to have a hearing like 
this.
    It's the right place because we are in Seattle, Washington, 
which is the hub of technological creativity and a group of 
people who know that we need some creative thoughts and 
creative technology on how to solve this global warming 
problem.
    It is the right time because the United States Congress 
finally, after years and years of passivity and neglect, is now 
ready to move on legislation to help communities across the 
nation deal with global warming and truly revolutionize our 
economy to one based on clean energy.
    It's certainly the right people because we have four people 
representing scores of mayors across the country who have been 
such visionaries and have lead their local communities--I'm 
starting right here with our local mayor, Greg Nickels.
    I'd also like to thank Jim Sensenbrenner of Wisconsin and 
Greg Walden who traveled to this, and they have been very 
active members of this committee, which has been a great 
committee, in my estimation, and Norm Dicks who was 
instrumental in providing $90 million in a recent 
appropriations to deal with global warming, and Jim McDermott 
who has been a leader in an effort to try to switch some 
priorities by removing subsidies and tax breaks for oil 
companies and move them into clean energy research.
    So before we hear from our witnesses, I wanted to note 
something about Seattle, Washington, which has been a hub of 
research based both on the science of global warming but on 
efforts to deal with it.
    I want to applaud Mayor Nickels for his leadership in this 
national effort to engage the mayoral talent across the country 
and its success, and you just heard that under Mayor Nickels' 
leadership, Washington has meet Kyoto targets. We want that to 
be something that will be replicated.
    He is not the only one. We have a leader in our area. 
County Executive Ron Sims and he have teamed up to be involved 
in some very progressive land use and transportation measures, 
and I appreciate their leadership in this regard.
    You know, Seattle City Light, they serve 380,000 residents, 
but their energy efficiency initiatives have reduced the 
release of CO<INF>2</INF> in the atmosphere by more than 
584,000 metric tons because they have taken some common sense 
measures, and we want to make that a national policy and 
believe we can do that.
    Their savings are the equivalent of removing more than 
131,000 cars from the roads. That is a signal achievement.
    Now, I wanted to share some good news with you. We have 
been waiting sort of perched in the capitol for years in great 
frustration.
    It's been both an inspiration and frustration watching 
these mayors at work.
    It's been an inspiration to see what they've been able to 
achieve with relatively little resources and some shoe levering 
great ideas and the urgency of the moment, but it's been a 
frustration because we haven't been able to move in Washington, 
D.C.
    The bad news is the ice is melting in the Arctic. The good 
news is the ice of resistance is melting in Washington, D.C., 
and we are ready to get going on climate change legislation.
    In August, the House of Representatives passed a bill that 
has the most aggressive energy efficiency standards for 
lighting ever, the most aggressive energy efficiency standards 
for heating and cooling appliances ever, the first ever federal 
directions for energy efficiency in building codes, the first 
ever federal legislation that will decouple utilities so that 
they can start selling conservation rather than just electrons, 
and importantly, a renewable portfolio standard that follows 
Washington state's adoption of a 15 percent RPS, the first one 
in the nation's history.
    We now are working with the Senate to try to reach a 
consensus, and I'm pleased to report that the fire, the clean 
fire, that these mayors have started is now reaching 
Washington, D.C., and I'm going to be very happy to report to 
them when their ideas reach fruition as a national policy 
because we know we cannot solve this just on a city by city 
wide basis. The scope of this challenge is too great.
    We have to have a new Apollo project in clean energy. 
That's why I named my bill The New Apollo Energy Project and 
even wrote a book about it, about that subject.
    We have great work for the mayors but are very excited to 
hear from them, but we know we need a national policy as well.
    With that, I'd like to yield to Mr. Sensenbrenner from the 
great state of Wisconsin.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    First of all, I'd like to note that the only Members of 
Congress who don't represent Washington state who come to this 
hearing are Republicans, and maybe that's why the weather is so 
good today.
    This is the second time the select committee has invited 
mayors from across the nation to testify about their efforts to 
reduce the emissions of greenhouse gases that cause global 
warming.
    In June I told the mayors that testified before the select 
committee that their experience shows how difficult it is to 
meet the climate change goals in the Kyoto Treaty.
    From the moment that treaty was drafted, it was clear that 
it would have heavy impacts on the economy.
    I chaired the congressional delegation that went to Kyoto, 
and after the agreement was reached, I opposed it because it 
was apparent that it would take economic sacrifices that 
weren't justified then or now.
    I was particularly bothered about the fact that major 
emerging economies, like China and India, were exempt from any 
reductions in the growth rate of greenhouse gases whatsoever.
    The result would surely have been a flight of manufacturing 
from America to those exempt countries that is far greater than 
we're seeing today, and that's saying something.
    It's been almost a decade since the treaty was adopted, and 
the results from Europe aren't good.
    It appears that several European nations are far from 
meeting their Kyoto goals, and those that are are doing so 
because of factors other than reducing greenhouse gases that 
weren't going to be reduced anyhow.
    This week the Seattle Times published an article about the 
difficulty many cities here in Washington state are having with 
meeting Kyoto goals, and I'm not surprised that cities which 
have pledged to meet Kyoto-like goals are having troubles, 
although I honestly don't believe it's due to a lack of any 
effort on their part.
    States and localities are often referred to as laboratories 
of democracy, but in this case cities can be seen as 
laboratories of global warming policy.
    I am pleased that nearly 700 cities have pledged to work to 
meet Kyoto's goal, and I hope that those cities will make their 
best effort to fund those global warming initiatives 
themselves.
    One of the biggest problems with implementing global 
warming policy is the cost.
    When city politicians try to mask those costs by using 
federal funds, then we're no closer to understanding what 
sacrifices voters are willing to make in order to try to 
address global warming, and that's very important information 
for Members of Congress.
    Republicans on this select committee and in Congress aren't 
out to oppose every global warming policy. However, I believe 
that Congress should be guided by some principles when 
considering global warming legislation.
    Any global warming policy should, first, result in tangible 
and measurable improvements to the environment; second, support 
technological advances; third, protect jobs in the economy; and 
fourth, include global participation, including China and 
India.
    I'm confident that Congress can find ways to address global 
warming while meeting these goals, and in doing so I'm sure 
Congress will look to see what works in the cities and states 
that have made their own emission reductions.
    Thank you, Mr. Chairman.
    Mr. Inslee. With that, I would like to yield to our good 
friend Greg Walden, who has been a leader on issues in forestry 
issues from the great state of Oregon.
    Mr. Walden. Thank you very much, Mayors. Welcome.
    Thank you for letting us join you today and thank you for 
joining us today. We appreciate that.
    I like to be in Seattle, and while I would not necessarily 
disagree with my colleague from Wisconsin that bringing good 
weather is a Republican thing, I think it just happened to 
follow me from eastern Oregon earlier today because we know 
that's where the good weather really resides.
    In fact, that's where wind energy and geothermal energy 
reside as well. It is home to 70,000 square miles of enormous 
potential for wind, solar, and geothermal energy.
    I've had scientists tell me that there's enough potential 
in Oregon in geothermal to replace two-thirds of the electrical 
generation used.
    We know in the Northwest that we have done a good job on 
conservation. We have been a leader, I believe.
    According to Northwest Power Conservation Council, from 
1978 to 2005, the Northwest produced more than 3,100 megawatts 
of energy conservation, which equates to 40 percent of the load 
growth during this time period.
    The state energy efficiency scorecard of June 2007 produced 
by the American Council for an Energy Efficient Economy ranks 
Oregon and Washington among the nine most energy-efficient 
states in the nation.
    Public Power Council notes the Northwest has nearly 2,000 
megawatts of installed wind capacity and another 4,500 
megawatts under development, 638 kilowatts of solar facilities, 
336 megawatts of geothermal, and will soon have some of the 
first ocean-powered projects in the nation, even though one of 
those initial buoys sunk the other day.
    We are learning from it though.
    We also have America's great national forests, and we'll 
talk later in this hearing, as I see my time seems to be 
running out rapidly, about the need to do better management of 
our forests.
    We see these incredible fires. We know the emissions that 
are being released. We can do a better job of managing our 
forests and reduce the emissions that come from fires.
    I will leave it at that, Mr. Chairman. I see my time has 
expired.
    Mr. Inslee. We'll yield to--Mr. Dicks is doing great work 
for Puget Sound and understands the impacts of global warming 
on our Puget Sound.
    Mr. Dicks. Thank you, Mr. Chairman. I want to thank our 
Republican colleagues for coming all the way out here. I'm glad 
we had a beautiful day in the Northwest.
    This year I became chairman of the Interior and Environment 
Appropriations Subcommittee, and one of the things I tried to 
do on our committee is to increase the funding for climate 
change activities.
    We increased it by $96 million above the administration's 
request, $200 million in EPA's budget and $67 million for 
interior department agencies for climate change activities, $46 
million for the climate change science programs of the U.S. 
Geological Survey, EPA, and the Forest Service.
    We also are very interested in what the effects on wildlife 
will be and on our federal lands, and we have a hearing in 
which we brought in officials from the Forest Service, the BLM, 
Fish and Wildlife Service, and they told us, unanimously, that 
we already are seeing the consequences of a warming climate on 
our national lands, more drought, more bug infestation, very 
serious problems, and the rising of the sea, which has occurred 
more rapidly than at any other time in our history.
    I want to say to the mayor: Mayor Nickels, we are very 
proud of you and your leadership and all of you mayors.
    I read every one of your statements on the way out. I flew 
out this morning from Washington, and you all have done 
fantastic work, and you've got an action agenda, which is what 
we like to see, and I'm very confident that we're going to get 
an energy bill passed with your block grant in it, and I think 
that money is going to be necessary to help some of the 
communities.
    The larger ones are going to be able to do this, a lot of 
the work themselves, but some of the smaller communities are 
going to need some assistance, and I think the block grant, 
which is the mayor's top priority, is a good idea.
    Also, I just want to end on this: For the first time our 
bill requires EPA to propose and publish a regulation for 
reducing greenhouse gases.
    The bill includes $2 million for the development of the 
regulations, following the recent Supreme Court ruling that the 
EPA has the authority to regulate greenhouse gases from local 
sources, so it's time for action, and EPA needs to start 
getting the regulation in place.
    Mr. Inslee. Thanks, Norm, and we'll yield to Jim McDermott, 
a great member of the Ways and Means Committee.
    Mr. McDermott. Thank you, Mr. Chairman.
    Welcome to Seattle.
    Norm, Greg Nickels is my mayor, and we are proud to have 
the leadership in this city that isn't coming from Washington. 
We have to wait for 440 days until we're going to start to get 
some leadership from the White House.
    America is importing supertankers loaded with oil, and 
we're exporting tankers loaded with America's cash, and it has 
made the United States dangerously vulnerable on economic, 
ecological, and national security, and our addiction to oil 
endangers the future of the planet.
    Our current strategy for energy independence is not 
working.
    The President has attempted to conquer oil fields in the 
Middle East to meet our energy needs.
    Seven long years into this administration, the price for a 
barrel of oil has gone from $30 a barrel to nearly $100, and he 
still doesn't get it.
    The President wants to conquer it by drilling in the Arctic 
National Wildlife Refuge. That won't work either.
    The solution will come from the national resources all 
around us, wave, solar, biofuels and from policies that 
emphasize and reward conservation and efficiency.
    We put a bill out of the Ways and Means Committee that's 
siting in the Senate, and we need your help to lobby the 
senators to get that bill out of there.
    Drilling for oil is not going to save the planet, but 
ending our addiction to oil will.
    Our work here is not merely about energy independence.
    In a few short years we've gone from an inconvenient truth 
about global warming to a clarion call for action.
    The Ways and Means Committee had a hearing in which all the 
witnesses said there was global warming and we ought to do it, 
called by both Republicans and Democrats.
    This is not a partisan issue. It is an issue of 
understanding what's going on in the world.
    We believe there's a chance, if we stop pretending and 
start defending our planet.
    We need new technologies, new policies, and political 
leaders like the four distinguished mayors before us here 
today.
    I not only want to hear what they're doing but what we need 
to do in Congress.
    We want to listen to you today.
    Thank you.
    Mr. Inslee. Thank you.
    It's my honor to introduce these great optimistic leaders 
because I know they're optimists because they're here, and 
they're realists as well, and I appreciate that.
    First--for a moment, first among equals, Mayor Greg Nickels 
of Seattle who has really spark-plugged this effort, and when 
the book is written about how we succeeded in this grant, 
you'll be in the first chapter, and thanks for your work.
    I want to point to your green collar job successes that 
you've had, and I appreciate it.
    By the way, you are my mayor too. Don't let McDermott steal 
the whole city.
    Mayor Manuel Diaz of Miami has done great work and just 
recently announced 11 sustainable principles, sustainability 
principles, that Miami is going to enjoy, and my roommate's got 
clients from Florida who sings your praises, so great work.
    Mayor Palmer from Trenton who I am very pleased to say is 
really the fellow known about brown fields leadership, and we 
hear about this in the East Coast all the time.
    When I was writing this book, I heard about your efforts, 
and we appreciate that.
    Of course, Mayor Michael Bloomberg, great city of New York, 
who has a tremendous idea about replacing taxi cabs and putting 
in hybrids.
    I am to report, Mr. Mayor, I was in your great city Monday 
morning talking to Wall Street folks about how to create a 
carbon trading system, and both cab drivers said they love your 
proposals, so you have two constituents working for you.
    Mayor Bloomberg. That's a start.
    Mr. Inslee. That's a start.
    With that, I yield 5 minutes to Mayor Bloomberg.

 STATEMENT OF THE HON. MICHAEL BLOOMBERG, MAYOR, NEW YORK CITY

    Mayor Bloomberg. Thank you, Acting Chair and Ranking 
Members Sensenbrenner and Congressmen Walden, Dicks, and 
McDermott.
    I bring greetings to you from your chairman Ed Markey. I 
was with him last night at a conservation international dinner, 
and I'm happy to report he really does have an injured Achilles 
tendon, he really is on crutches, and his wife really would 
have rather had him come out here.
    Anyway, as you know, many of us just came from an event, 
the U.S. Conference of Mayors, run by Doug Palmer, which 
highlighted how much local leadership can do in climate changes 
across our city.
    Let me just try to summarize what I told that conference 
today. I'll try to be succinct.
    We think we need Congress to start taking the kinds of bold 
actions that cities and states are taking, and let me note that 
I'm talking about mayors and governors, Republicans, Democrats, 
and Independents from east, west, north, south. We all feel the 
same way. We need federal action because putting the brakes on 
global warming is not only an environmental imperative, it is 
also a national security imperative and an economic security 
imperative.
    The fact is that green energy is going to be the oil gusher 
of the 21st Century, creating good jobs across America: Farm 
jobs, factory jobs, sales jobs, management jobs. There's going 
to be a huge industry here, and we don't want our companies to 
move overseas where the employees will feel they can breathe 
cleaner air.
    We are the world's superpower, and we have to be pioneers, 
and I'm afraid that we keep losing that opportunity.
    Fighting global warming really is a national security 
imperative because it allows us to reduce our dependence on 
foreign oil, and that has really entangled our interests with 
tyrants and increased our exposure to terrorism.
    Any serious long-term strategy for strengthening our 
national security really does have to include the strategy for 
breaking what President Bush said is our addiction to oil, and 
usually breaking an addiction involves a 12-step program, but I 
really think that in four steps we can do it.
    Let's have a quick discussion on each of them.
    First, we need to increase investment in energy R&D, 
including support for demonstration projects such as the waste 
energy plan we want to build in New York City.
    Right now the U.S. is spending only one-third of what we 
were spending in the 1970s on R&D. It really is a disgrace. We 
talk about technology, and then we'll unwilling to fund it.
    Second, we have to stop setting tariffs and subsidies based 
on pork barrel politics.
    Why are we taxing sugar-based ethanol at $0.50 and 
subsidizing corn-based ethanol at $0.50 a gallon.
    It may be good agricultural policy, and if it is, fine, do 
it, but call it what it is. It's not giving us better energy 
independence. It's special interest politics, plain and simple.
    Third, we have to get serious about energy efficiency for 
both our buildings and our vehicles.
    In New York City we are converting cabs to hybrids, but the 
federal government has to do what you guys did so well between 
'75 and '85. You forced Detroit and the other companies to 
raise average miles per gallon from something like 12 to 24, 
25, and then we've done nothing since '85, and it was done to 
protect Detroit, and in fact you have destroyed the jobs in 
Detroit, you've destroyed the companies in Detroit.
    It's gone exactly the wrong way. We have got to be serious 
about mileage standards.
    Fourth and finally, we have to stop ignoring the laws of 
economics.
    As long as greenhouse gas pollution is free, it will be 
abundant.
    Capitalism really works. If you want to reduce it, there 
has to be a cost for producing it, which means putting a price 
on carbon, indirectly through a cap and trade system or 
directly through a charge on all carbon use.
    What I want to talk about today is I think that the primary 
flaw of cap and trade is economic, it's uncertain. People don't 
invest when the prices go up and down because they don't know 
whether their investments will pay off.
    The problem with the direct--what you could call a fee or a 
price or some people might disingenuously call a tax, is that 
it's politically unpopular, and it's time, I think, for 
Congress, because we can't do it, to stand up and tell the 
public that we have got to do something.
    Forget about waiting for India, forget about waiting for 
China, forget about global warming. The air we are breathing 
today is what you've got to focus on, and you can do something 
about it by making it in everybody's interest to invest in R&D, 
invest in new technology, and cut the emissions that they're 
using, but whichever ways you go, you have to do something, and 
you have to make it something that's understandable by the 
public so that they don't think there is a special interest 
taking advantage of them. You have to make them think that it's 
being done efficiently. You have to make sure that it's going 
to have the desired effects, and thank you very much for 
considering it.
    You guys really can make an enormous difference.
    While we at mayor level criticize Congress, we shouldn't.
    [The statement of Mayor Bloomberg follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  STATEMENT OF THE HON. DOUGLAS PALMER, MAYOR OF TRENTON, NEW 
                             JERSEY

    Mayor Palmer. Thank you again, Mr. Chairman and members of 
the committee.
    I'm Douglas Palmer, Mayor of Trenton, New Jersey, President 
of the U.S. Conference of Mayors.
    I am proud to be joined by my colleagues to share our views 
on federal actions you can take to support the broad and 
growing grass roots movement among mayors to address this 
critical challenge before the nation and our planet.
    Mr. Chairman, please thank Chairman Markey for bringing 
this important field hearing to Seattle.
    Undeniably, mayors are the nation's leaders on climate 
protection. We are the first responders, and we are in a 
position to engage the public as we look at a range of 
solutions and the actions that are needed to curb our 
greenhouse gas emissions.
    For mayors, we're very anxious to have the federal 
government engaged as a better partner as we seek those 
environmentally friendly and sustainable climate protection 
policies and programs for our communities.
    For America, we believe this partnership is necessary to 
help us be competitive in the worldwide race to develop the new 
generation of green technologies and practices, and these are 
jobs that we can't outsource.
    As government leaders, we all know that each level has to 
do their part.
    For mayors, we believe that in the short term the best way 
to organize is through grass roots, community-led initiatives, 
and that is what the mayor's climate protection agreement is 
all about.
    I'll skip some of our history here to be brief, but we 
have, through the leadership of Greg Nickels, as was mentioned, 
we have now signed today 728 mayors to the climate protection 
agreement, which is more than one-quarter of the United States' 
population that now lives in cities where mayors have made a 
commitment to reduce carbon emissions by seven percent below 
the 1990 levels by 2012.
    Last June we adopted a new conference policy that outlines 
federal actions you should pursue in reducing greenhouse gases.
    As President of the Conference of Mayors, I have made an 
enactment of an energy block grant modelled after the 
successful CDBG program.
    This is one of our top priorities. This proposal is the 
leading recommendation of the conference's ten-point plan: 
Strong cities, strong families for strong America.
    We are very pleased that the House and Senate energy bills, 
which are pending now before you, include our energy block 
grant programs.
    When enacted, this block grant will dramatically accelerate 
and expand local energy efficiency programs and help us make 
gains in protecting the climate.
    In addition to the block grant, we want to call your 
attention to our key initiatives in the pending energy 
legislation: Green job initiatives, added support for public 
transit, expanded tax incentives for alternative energy 
sources, new energy efficient standards for appliances, light 
bulbs, and buildings, and tax credit bonds to support large 
capital improvement by cities.
    Today we call on Congress to finish work on this energy 
legislation and send agreement to the President this year.
    The current energy legislation is not an end point but 
rather it is a beginning of a new generation of federal 
commitments to combating our excessive energy use, foreign 
energy dependence, and climate change.
    Next up will probably be legislation to establish a cap and 
trade system. We need to make sure that these locally based 
initiatives that we are discussing here today are a key element 
of any cap and trade legislation.
    In conclusion, Mr. Chairman, I want to again express my 
thanks to you and members of the committee for holding this 
hearing today and your continuing efforts to address climate 
change initiatives.
    The mayors of this nation believe that the time has come 
for Congressional action on climate change, and we certainly 
appreciate the opportunity to talk to you about this.
    What you see here today is an unprecedented group of over 
100 mayors that have come together in cities from Seattle all 
the way to Meridian, Mississippi, from Trenton, New Jersey, 
from all over our country, and we all are good Americans, but 
we want our country to be safe and secure.
    Getting off of foreign oil and our dependence on it, 
creating green collar jobs--which is essential in my city of 
Trenton, New Jersey, to create a whole new market and a source 
of jobs, help our middle class stretch our economy and produce 
sustainable jobs.
    This is about America, and America will lead the way in 
this initiative.
    I'm quite sure that when we show what we can do and make 
money from being green, that China and India and the rest will 
follow our lead as these countries follow this great American 
experiment called the United States of America.
    Thank you.
    [The statement of Mayor Palmer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Inslee. We think we understand why the mayors have been 
so successful. This is very uncongressional. Our first two 
speakers didn't use all their time.

   STATEMENT OF THE HON. MANUEL DIAZ, MAYOR OF MIAMI, FLORIDA

    Mayor Diaz. Mr. Chairman, Members, thank you for the 
opportunity to testify before you today.
    I'm afraid I'm going to have to join that weather bragging 
that was going on earlier. I think it was the Florida mayors 
who brought the sunshine with us to Seattle.
    Although the issue of climate change represents a global 
challenge, it has prompted a local response. This is what 
America's mayors have done.
    You will now hear from our Pied Piper mayor, Mayor Nickels, 
who through his leadership has brought together over 700 
mayors, including, I would add, 70 from Florida who have signed 
the Mayors Climate Protection Agreement.
    In Miami we are particularly susceptible to the effects of 
climate change causing more and stronger hurricanes, rising sea 
levels, a threat in water supply, and a threat to one of the 
most fragile ecosystems in the world, the Florida Everglades.
    Miami is responding with a climate action plan, our 
blueprint towards sustainability.
    Through this plan, municipal government is placing 
environmental consciousness into every decision we make.
    For the first time ever we have created an office of 
sustainable initiatives. We are creating our green fleets, 
converting our entire fleet to hybrids or other fuel-efficient 
vehicles by the year 2012.
    Last year I traded my City SUV for a hybrid. I have doubled 
my fuel economy, cut my gas consumption in half, cut greenhouse 
gas emissions by 40 tons, and saved the taxpayers twice the 
amount of fuel costs in just one year.
    Because buildings emit 48 percent of greenhouse gas 
emissions and consume 68 percent of electricity in the U.S., 
our green building program has laid credit to the first LEED 
precertified green building in the state of Florida.
    Our new zoning ordinance will require all buildings over 
50,000 square feet to be built silver certified, LEED certified 
green buildings.
    We are training our City staff to be LEED certified and on 
providing expedited building permits for green buildings.
    Apparently there's over $2 billion worth of green 
buildings--construction taking place in the city of Miami. We 
have gone from zero buildings in less than a year to over 20 
buildings that have now registered in Miami. They are either 
going to build green or you're not going to build at all.
    We have instituted green procurement and water conservation 
measures, public transit initiatives, such as dedicated bus 
lines and light rail.
    In a city where hurricanes have depleted our tree canopy 
cover, our canopy replacement is a priority.
    We have now adopted our first-ever tree master plans to 
increase our tree canopy by 30 percent in ten years.
    I am proud that for the first time ever, Miami was named a 
tree city U.S.A.
    We have also taken the ultimate step towards sustainability 
by increasing the density of our city because bringing people 
back to the urban corridor is the ultimate antidote for 
suburban sprawl.
    Given the worldwide move towards urbanization, the single 
most critical action we can take to help save our planet is to 
embrace smart growth by designing cities that make sense.
    In Miami, we decided to embrace smart growth on a scale 
never before seen in a major U.S. city, and this is the 
cornerstone of our Miami 21 project.
    For too long cities have been planned around cars and not 
people. Miami 21 will change that by bringing sustainability 
through design.
    It is rooted in the belief of the power of traditional 
neighborhoods to restore the functions of sustainable cities.
    The idea is to make the city pedestrian friendly, building 
and designing around people, offering them great shared spaces 
of civic pride so they may work, live, and play all within 
walking distance.
    Finally, we recognize that while individuals want to take 
the initiative in reducing their carbon footprint, they often 
do not know how. This is why we started an awareness campaign, 
something we call: One person, ten steps, ten tons, ten simple 
things a person can do to reduce their carbon footprint by ten 
tons.
    As you can see, local government is acting, but local 
government cannot act alone.
    If we are to ameliorate the impact of climate change, there 
needs to be a multifaceted approach involving all levels of 
government.
    This is especially true when local governments are facing 
increasing budgetary constraints.
    The Conference of Mayors has called on Congress to partner 
with us by providing additional resources to develop and 
implement comprehensive energy efficiency plans.
    Both versions of the energy bill contain an energy 
efficient block grant whose passage is the top priority of the 
United States Conference of Mayors.
    The CDBG would provide local governments with needed 
additional resources to continue developing and implementing 
comprehensive energy strategies for our community.
    I would strongly urge that you adopt this important piece 
of legislation, and let me leave you with an ancient Native 
American saying, ``We do not inherit the earth from our 
ancestors. We borrow it from our children.''
    Thank you for joining America's mayors today. Thank you for 
the opportunity to testify before you.
    [The statement of Mayor Diaz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Inslee. Thank you, and it is a fine day for the Pied 
Piper.

     STATEMENT OF THE HON. GREG NICKELS, MAYOR OF SEATTLE, 
                           WASHINGTON

    Mayor Nickels. Chairman Inslee, Ranking Member 
Sensenbrenner, Mr. Walden, Mr. Dicks, Mr. McDermott, welcome to 
Seattle. I am very proud to have you here today. Particularly 
Mr. Sensenbrenner, Mr. Walden, thank you for making the trip 
out here, and hopefully you'll spend lots of money while you're 
here and enjoy our sunshine.
    You're coming at a very exciting time for us. In the last 
two days, as you heard, over 100 mayors gathered here to talk 
about this issue of local leadership on greenhouse gas 
emissions and how we can accelerate that local leadership into 
action.
    I've submitted significant comments in writing to you. I'm 
not going to read that to you, but I'd like to make some brief 
comments to you orally.
    Seattle's very excited about this issue and in sharing our 
experience with you on how we have increased energy efficiency, 
how we use renewable energy, and how we have reduced our 
greenhouse gas emissions in the city.
    We've heard in the last couple of days from former 
President Bill Clinton who talked about the work of the Clinton 
Climate Initiative and who announced a purchase consortium that 
cities will be able to join to buy energy-efficient products at 
low prices, very similar to the work that the Clinton 
Foundation did on HIV AIDS.
    We heard messages of optimism and hope around the green 
revolution from former Vice President and now Nobel Prize 
winner Al Gore, from noted Canadian journalist and scientist 
David Suzuki, and Jerome Ringo of the Apollo Alliance.
    I think most importantly we learned from one another what 
our cities are doing, the results we're having, and how we can 
inspire our communities to do even more.
    It's important that cities are involved in this effort, and 
that's because for the first time in human history more people 
live within cities than do not, and as the engines of our 
national economies, we consume about three-quarters of the 
energy that is consumed on this planet, and obviously it's the 
burning of fossil fuels that is causing the greenhouse gas 
pollution that is threatening our planet.
    There are people who would look at cities and say, ``You're 
the problem.'' I would suggest that you look at the cities and 
see us as the solution to this problem.
    In February of 2005, after a period of time that we called 
snowless in Seattle, when the snow pack in the Cascade 
Mountains was at 1.1 percent of normal, which meant no ski 
season, which Mr. Walden knows is a tragedy in the Northwest, 
but more than that, for Seattle, we rely on 100-year-old 
systems to capture that snow as it melts and use it for water 
and use it for power, and we were doing such drastic things as 
urging people to shower together.
    On February 16th of 2005, I challenged the people of 
Seattle to meet or beat the reductions called for in the Kyoto 
protocol, but recognizing that if it were only Seattle, it's 
purely symbolic, and it's hard to ask people to take tough 
action for purely symbolic reasons.
    I challenged my fellow mayors to join with me.
    For the United States, that reduction would mean a seven 
percent reduction from 1990 levels by 2012.
    Today, more than two years later, I'm pleased to say, as 
was mentioned, that 728 mayors have taken this up, and they 
have agreed to take local action to try and achieve those same 
reductions.
    They represent one in four people who live in the United 
States of America.
    In Seattle, we decided to try and lead by example. The City 
government has reduced its emissions by 60 percent from 1990 
levels. We have measured our community-wide emissions, and 
we've reduced our community-wide emissions by eight percent 
from 1990 levels, so we have, in fact, met the targets set out 
in the Kyoto Treaty.
    Now, if we do nothing more, we will not maintain that 
because growth in population and growth in the emissions of our 
transportation system mean that we would begin to creep back 
up, but we are committed to continuing to take action to reduce 
our emissions.
    It's a remarkable milestone, but it is a first step, and 
obviously we need to go far beyond what Kyoto calls for.
    You've all said--we've all said it's not a perfect treaty, 
and in fact it's only a first step, and we can lead at the 
local level, we can achieve this reduction we believe is called 
for in Kyoto, but it's going to take national leadership. It's 
going to take a national will to move forward for us to reach 
the levels we have to to protect the climate for our children 
and our children's children, and that's why we think that the 
energy block grant is important. That's why we think that 
whether it's a cap and trade system or a carbon tax, it is 
important that our federal government stand up and help lead 
this effort, this global effort.
    Thank you.
    [The statement of Mayor Nickels follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Inslee. Thank you.
    The Chair will recognize himself for 5 minutes.
    I wanted to ask Mayor Bloomberg about the position you 
espouse that we need some cost on carbon, that that's pivotal 
to this solution, and I agree with you in that regard. The more 
I've looked at this, the more that's absolutely pivotal to 
drive investment in these new technologies because we need new 
technologies to skin this cat.
    I was asked--I was just on a radio show just a few minutes 
before we started here, and a fellow asked if this was a tax, 
and I suggested it really was not, that it was a charge for the 
use of a scarce resource, that the atmosphere is a scarce 
resource that we hold in common, and we allow polluting 
industries and ourselves now to put CO<INF>2</INF> in the 
atmosphere at no charge.
    Now, you had some experience in the capitalist system, and 
my view is without charging for the right to put CO<INF>2</INF> 
into the atmosphere, it's a little like allowing a company to 
come up to a city park and dump their garbage in the city park 
or over your fence at no charge.
    To me it's a rational thing, economically, to have 
limitations on CO<INF>2</INF> and to have an auction for 
permits in the most certain way we can to get as much certainty 
in the market as we can. You addressed that as well.
    I just wondered if that's a fair assessment, and give me 
your thoughts, maybe in a little more depth, why we need a 
price on carbon.
    Mayor Bloomberg. People are not going to stop doing 
something that is in their interest as long as it's in their 
interest, and if you were to have a fee, it is less in their 
interest, and presumably they would divert their resources 
elsewhere.
    What I would suggest is you charge--you can call it a tax 
if you want. I know that's a word that--everybody runs away 
from the word ``tax,'' but Americans aren't stupid. They 
understand that they are going to have to pay one way or 
another if they want progress, and I think if somebody looks 
them in the eye, they are not going to go and shoot you for 
saying, ``I'm supporting this particular charge.''
    What I would do with the moneys, however, is I would divert 
a little bit to expand the R&D, and I would use the rest of it 
to reduce payroll taxes, so that the net tax effect on the 
public is less, but you would take it away from those handful 
of companies that pollute a lot. You would help everybody.
    After all, more jobs are good, more pollution is bad, so 
charge people that are polluting and give the money to the 
people that are doing something good.
    Let me give you another thought about cap and trade and 
other ways to describe it.
    If you want to reduce, let's say, something bad, stolen 
automobiles in this country, what you have to do is--and you 
also covet your neighbor's automobile. Pay somebody who's a 
professional guy at stealing cars and ripping them up at the 
shop, pay him some money to not steal two cars and then go 
steal your neighbor's car.
    Will you have reduced the number of cars stolen in America?
    That's what cap and trade is. It's saying, ``I'll still go 
and pollute, but I'll just pay somebody else to not pollute.''
    I think we should stop the pollution. You are not going to 
make any progress here.
    Mr. Inslee. I think your point is really important to fence 
in this idea of offsets.
    I think you are referring to the offset model, and it is 
clear that if a cap and trade system is going to work, you are 
going to have to put limitations at least----
    Mayor Bloomberg. Experience in Europe and in Australia and 
other places has been terrible.
    It did work here in this country to reduce sulfur 
emissions, but that was a very small thing.
    Overseas, it's cost companies billions of dollars that they 
didn't expect because they made investments, and it turned out 
that the price of carbon varied so much that their investments 
were poorly constructed, poorly made----
    Mr. Inslee. We found multiple errors in the European system 
that we intend not to replicate----
    Mayor Bloomberg. I think most economists will tell you that 
rather than take one right--take three left turns, take one 
right turn.
    You are going to find businesses coalescing around this 
idea because everybody understands the implementation of it 
would be so unfair, would have so much fighting about who gets 
special interest, and would not accomplish what everybody wants 
to get done here.
    Mr. Inslee. Gotcha.
    I want to ask the other three mayors: Could you share 
surprises, learning experiences, both positives and negatives, 
things you thought were going to be hard that turned out 
relatively easy and the opposite?
    Tell me about your learning experience that we should share 
on a federal level. What worked best? What did not work that 
you thought was going to work?
    Mayor Nickels. Mr. Chairman, I'll kick off with that.
    First of all, when we embarked on the U.S. Mayors' climate 
protection agreement, we hoped against hope that we would sign 
up 141 cities, one for every country that had signed onto 
Kyoto.
    The fact that we have 728, and they represent, literally, 
one in four Americans, to me is remarkable.
    It means that this issue is well understood throughout the 
country and that the message that we need to take action at the 
local level, in the absence of federal leadership, is widely 
held.
    All 50 states are represented in this agreement, and to me 
that was surprising.
    I knew it would do well in Seattle, would do well in some 
other places, but it really has been something that people have 
been perceiving, and the fact that this is a different issue 
and different effort in different parts of the country I think 
is something that has become clear.
    In Seattle, our electric utility, which we own, has zero 
net greenhouse gas emissions, none. We sold a coal plant, we 
have invested hundreds of millions of dollars in conservation, 
and we now emit zero out of our electrical system, so we can 
turn the lights on in Seattle, and you are not toasting the 
planet.
    That's a harder issue with other parts of the country that 
rely on coal and other fossil fuels, and we're going to have to 
find other ways of providing help in those places.
    That's why the flexibility of the block grant is so 
important. Different answers are going to work in different 
parts of the country.
    Mayor Palmer. I also think it's very important--as Mayor 
Nickels says, different cities are at different places than 
others.
    Of course here in Seattle--Seattle has really been a mover, 
and through his leadership we've seen what's happened.
    I'm from New Jersey. Governor Corzine has just implemented 
his reduction strategy, but quite frankly, we have to look at 
changing human behavior.
    Each mayor in this room and across the country has the 
ability to make those changes because people look to us for 
leadership. We just don't have the luxury of picking and 
choosing what issues we want to deal with. We have to deal with 
all of them. We are the first responders.
    This is a critically important issue to us, but we do 
recognize, you have to let everybody understand what's their 
piece of the pie, ``What's it going to do for me?''
    In neighborhoods where there are low-income people that are 
really paying high exorbitant costs for where they live for 
heating and fuel and those kinds of things, they may say, 
``Look, I'm worried about getting a job, I'm worried about my 
prescription drugs, and how does this help me?''
    Well, that's why the energy block grant can help as well to 
give us resources. That's why mayors are not waiting and are 
doing those things that say, ``This is how we can create green-
collar careers,'' by looking at solar panels and putting solar 
panels on roofs, looking at ways in which we can install the 
compact florescent light bulbs by our senior citizens, creating 
jobs out of that.
    One of the biggest challenges we're going to have, quite 
frankly, is telling all of our citizens, whether it's the 
business community, how you can really make money by going 
green, talking to people in low-income neighborhoods about how 
you can get jobs, so that's what we're doing.
    That's one of the biggest challenges, and I think it's 
important that we show strong leadership not just by the 
mayors--we can't do it alone--but by what you're doing, the 
actions you are taking, being here, having these hearings.
    We recognize you are coming here because we were here, and 
we appreciate that.
    Moving forward on the energy environment block grant and 
strong leadership from the White House and from the next 
President is important so that all of our citizens can 
recognize this is something that's in the best interest of our 
national security and all of us.
    I want to put into the record, and this can tell you--this 
is our climate protection strategy and practice guide that we'd 
like to have put into the record. It shows success stories that 
continue to happen each and every day from mayors in a real 
way.
    Mr. Inslee. Thank you.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I think one of the reasons why the Kyoto Treaty was not 
ratified--as a matter of fact, President Clinton, even though 
he signed it, did not send it to the Senate for ratification 
because it was an unfair treaty, and the economic costs of 
compliance with Kyoto were not sustainable or politically 
acceptable.
    Whether we're talking about a carbon tax directly or an 
indirect tax through buying carbon offset credits, we are 
talking about higher energy costs, and how do we prevent the 
outsourcing of jobs if we have significantly higher energy 
costs and countries like China and India don't?
    Mayor Bloomberg, you said, ``Forget about China and 
India.'' I really can't, because of that.
    Can you respond to that?
    Mayor Bloomberg. I think China and India come along not 
because of any pressure, other than the same thing that brought 
down the Iron Curtain. They will see on television, they will 
see from the Internet that other countries, hopefully America 
and Western Europe, can breathe clean air, and they will want 
it, and they will demand it from their own government.
    No government exists without the will and the majority of 
the people. You are not going to force them to do it. They are 
going to demand it.
    You'll see China start doing this with the Olympics, and 
all of a sudden the air is going to be an awful lot cleaner, 
and they are going to say, ``I don't want to go back to what we 
had before.''
    Let me just say about the jobs, some things are energy 
dependent and some are not.
    I just looked on my BlackBerry. Oil today closed at $96 a 
barrel. A few years ago it was $30 a barrel, and yet people 
really aren't driving less.
    Some things they are going to spend the money on anyway, 
but if you could force people to choose between natural gas and 
coal, and if you could make natural gas cheaper than coal or 
coal more expensive than natural gas, power plants would change 
instantly because they are very price sensitive.
    What we found in our society in the last five years is we 
are nowhere near as dependent on the cost of oil as we used to 
be.
    If I told you five years ago oil was going to go from $30 a 
barrel to $90 a barrel and the stock market would be at record 
high, and we would have reasonably low unemployment and 
prospects----
    Mr. Sensenbrenner. I'd sell my Bloomberg stock if you said 
that----
    Mayor Bloomberg. You would have sold everything, and the 
truth of the matter is our society uses a lot less oil.
    The problem we have here is not the jobs, it is the impact 
on our environment, and while Kyoto was flawed--I'll tell you, 
Kyoto was worse than what you think because a lot of the 
countries that signed up never did anything, but I still don't 
know how to look, Congressman, the people of New York City in 
the eye and say, ``We are going to go ahead and continue to 
pollute the air your kids breathe because on the other side of 
the world they're not willing''--it just doesn't make any 
sense.
    Mr. Sensenbrenner. Mayor, a year after Kyoto, the head of 
the energy information agency who was a direct appointee of 
President Clinton testified before the science committee that 
compliance with Kyoto would result in a 60 to 80 percent 
increase in the cost of energy, and he specifically referenced 
electricity, natural gas, and fueling.
    Now, how do we sustain our economy with those kinds of 
increases, particularly with countries that are exempt like 
China and India?
    I have less faith than you that the communist government in 
China is going to respond to the people and do all of these 
things.
    Mayor Bloomberg. I just have enormous faith in America's 
competitiveness.
    We are losing jobs and business overseas not because they 
are more attractive. It's because we are becoming less 
attractive.
    China is building automobile manufacturing plants in 
Eastern Europe not because it's cheaper but because they have 
to have a better workforce and close to their market.
    They don't have enough engineers, don't have enough trained 
people.
    We have the great America machine. We are just holding it 
back.
    Mr. Sensenbrenner. But isn't the secret to dealing with 
this question advances in technology, because America is the 
most innovative country in the world, and we educate people who 
innovate, and this community is probably the best one in the--
--
    Mayor Bloomberg. Congress, I am 100 percent with you, but 
we should have told you we cut the amount of R&D by two-thirds.
    If you believe that, then let's get Congress to give us 
some money to do the inventions.
    Mr. Sensenbrenner. The R&D tax credit expires on December 
31st. The House of Representatives has yet to act on a bill 
that extends the R&D tax credit.
    That tax credit is the private sector incentive for R&D, 
not government handout but a private sector incentive.
    Can we get you guys on board to do that because that's 
something we can do in the next eight weeks?
    Mayor Bloomberg. I promise you our office will talk to your 
office on Monday and see what we can do to help get more R&D in 
this country.
    I can just tell you R&D is leaving this country. Scientists 
don't want to work here, education is moving overseas, and 
three-quarters of IBM's employment is overseas today.
    Just think about that.
    Mr. Sensenbrenner. Mayor, with all due respect, I'll be 
happy to talk to your office on Monday, but why don't you just 
go uptown and talk to Ways and Means Committee Chair Rangel 
because he's got the future of the R&D tax credit in his hand, 
and now----
    Mayor Bloomberg. I talk to him every day. Thank you. I need 
you to come and work with me.
    I'm on your side on a lot of these things.
    Charlie is a good guy, but I don't agree with him on 
everything.
    Mr. Inslee. This is certainly worth the price of admission.
    Thank you.
    Mr. Walden.
    Mr. Walden. Thank you, Mr. Inslee.
    Mr. Mayor, I want to follow up on a comment you just made 
about converting energy production from natural gas to coal 
because I think most of us recognize the cost of capture, 
compression, sequestration is very high, and the science is not 
proven yet, and I fully concur with the notion we need to 
invest more in scientific research, but shifting to natural gas 
still produces carbon emissions, about a third what coal does, 
but somehow we look at natural gas sometimes as not producing 
carbon tonnage at all when, in fact, it does for electricity 
production.
    I'm a little concerned about shifting to another one that 
produces two-thirds less but still produces, but the big issue 
is: Where do you get the natural gas?
    Mayor Bloomberg. Well, the supply of natural gas worldwide 
is great, supply of wind is great.
    There are a lot of different things you can do, but the 
issue is not to let the perfect get away--in the way of the 
good.
    If you can go from coal to natural gas, that would make a 
very big difference. If you go to wind, that would make another 
big difference.
    Plus, to solve all the electrical problems in this country, 
go to nuclear. That's what France has done, and more and more 
environmentalists are starting to come out in favor of nuclear 
power.
    Mr. Walden. I appreciate you saying that because a lot of 
our colleagues in Congress are on the opposite side of that 
issue, as they are on the opposite side of LNG, compressed 
natural gas being brought in.
    The energy bill we passed in 2005, we tried to expedite 
that process, so at least on the margin we can get natural gas 
in here, even though Alan Greenspan said, ``You'll never bring 
in enough LNG to make a huge difference and replace natural 
gas.''
    We need to access that which is readily available here but 
often found in areas that we're not allowed to go into.
    Do you think we ought to be able to go into those areas, in 
federal land, and gotten into in an environmentally sensitive 
way and get the natural gas out so we can then make the shift 
off of coal or do you think we----
    Mayor Bloomberg. We have to make a decision: Do we want to 
import or do we want to generate it here?
    If you generate it or dig it up or pump it here, it is 
going to be in places where some people don't think we should.
    Can you do it and be environmentally responsible is the $64 
question. People are skeptical that you can, but we have to 
make the choice. Do you want to import the oil or do you want 
to pump it here?
    Mr. Walden. I'm talking about natural gas.
    Mayor Bloomberg. Same thing with natural gas.
    I am not opposed to opening up lands here.
    I would require, if it were up to me, which it's not, that 
we had some real enforceable safeguards to protect the 
environment, but you can't have it both ways. You can't say, 
``I don't want to import gas or oil'' and say, ``I'm not going 
to do it here.''
    We are not about to turn off the lights. We can use less 
electricity for the lights, but we are still going to have an 
industrial society.
    Mr. Walden. I appreciate that. I think you and I agree on 
that point.
    Mayor Nickels, I bring you greetings from the receivers of 
your garbage. I mean that nicely. My district is--I have people 
at my district that contract or receive the solid waste from 
this area.
    We actually appreciate that because it means jobs in a very 
remote area of my district, so I'm not being sarcastic even 
though some might have interpreted it that way.
    I appreciate what you've done here in Seattle as well in 
this effort.
    I do share concerns similar to those outlined by my 
colleague from Wisconsin though. As much as I'm an advocate for 
renewable energy, and my district is home to much of that, 
wind, geothermal, solar--we are working on an EERE system down 
in Lake County right now in an old Air Force installation.
    I think it holds great potential, but what do we do--as I 
watch some of the testimony--I watched the ships go out of here 
and back over probably to China, and I think about the jobs 
that we have lost offshore, and part of the issue is energy 
costs, and so I'm hesitant about that, and I know that years 
ago--we're lucky in this region with hydro, but years ago the 
City of Seattle passed a resolution calling for the removal or 
breaching of Lower Snake River Dams which produces as much 
energy as we've conserved in the Northwest between 1978 and 
2005.
    Does the City of Seattle still support breaching the Lower 
Snake River Dams?
    Mayor Nickels. Congressman, that resolution was passed by 
the City Council before I became mayor, and you have not seen a 
repeat of that during my time as mayor.
    We have worked hard in conservation, as you know. We have 
invested some $340 million in conservation, and we've seen a 
significant savings in our usage of electricity and as a result 
in our electric bills, and we're proud of that, but we do 
support hydroelectric power.
    We own and operate dams on the Skagit River and on the Pend 
Oreille River, and it's basically solar power. It is the sun 
warming the ocean and taking the water over to the Cascade 
Mountains, putting it in beautiful snow that we can ski on, and 
then later we can put through the turbines. That energy is more 
susceptible to global warming than any other source.
    When that snow pack goes away, so does that source of 
clean, green power.
    We think it's important for us to be able to maintain that 
sustainable system we've had for 100 years and be able to 
conserve so that we don't have to have some of the other more 
polluting measures, and then in the meantime we work on 
technologies, solar--solar will create jobs in my city. It 
takes people to actually put them on buildings. That can't be 
outsourced.
    The R&D that Mayor Bloomberg was talking about, that will 
create jobs at the university here and ultimately in businesses 
that take that research and put it into application.
    We think there are great opportunities to create jobs in 
green industries, in green energy, and we think it's an 
exciting thing for the future of our country.
    Mr. Walden. I know my time is about to expire, but I have 
one final question, and that is that--and it's a serious 
question. How do you measure carbon output in a city?
    I understand how you can do it in a power plant where we've 
kept records. How do you do it overall though when we're all 
walking carbon emitters, we drive different vehicles, so how do 
we really get our hands around the measurement----
    Mayor Nickels. That's a great question, and I actually 
think there's a role for the federal government in that because 
there are a lot of different ways you can do it, and they add 
up to apples and oranges, so we don't necessarily have a 
consistent method that is, today, available.
    There are numerous organizations that have created tools 
that you can use.
    What we did is we took what we thought were the best 
models, and we built upon those.
    For instance, there are judgment calls. Seatac airport, not 
in the city, not run by the city, but clearly air travel is 
something people in Seattle engage in, so we took 30 percent of 
the emissions of the airport and called that our own.
    We think that the Congress and the federal government could 
establish a system that would be uniform, would allow us to 
compare apples to apples, and obviously that would be necessary 
if you were to have a cap and trade system, if you were to have 
a carbon--whether you call it a carbon tax and use the ``T'' 
word or carbon fee and use the ``fee'' word, that would give 
us, I think, a lot more common--ability to talk about that.
    Mr. Walden. I appreciate that. Your help as mayors would be 
helpful as we work on those policies.
    Thank you very much and thanks for your testimony and the 
work you are doing in your cities.
    Mr. Inslee. Thank you.
    Mr. Dicks.
    Mr. Dicks. Many of you have done good work on buildings and 
retrofitting buildings. I think that's an important part of the 
solution here because building construction is a major issue.
    Also, one of the things--I was reading one of the 
editorials in the paper today talking about the consequences--I 
worry a lot as chairman of the interior subcommittee about the 
consequences to wildlife, but if we do have really significant 
warming, there's going to be consequences to human beings.
    I would like each of you to maybe just take some time and 
discuss those two issues.
    Mayor Nickels. Mr. Dicks, one of the members of the U.S. 
Mayor's climate protection agreement is Bob Cluck who is the 
mayor of Arlington, Texas. He's a Republican and he's a medical 
doctor, and he said that for a number of reasons he had signed 
on, but the main reason was the effect that he is seeing on 
human health; in particular, asthma and other chronic illnesses 
that he is seeing in greater and greater numbers in his city 
that concern him.
    The air quality--the greenhouse gas emission that also 
causes climate change is something that he sees as a health 
problem as well.
    Mr. Dicks. What about LEED standards in your buildings?
    Mayor Nickels. Well, we are very proud. We are in sort of a 
nip and tuck race with the City of Portland to have the largest 
portfolio of LEED buildings.
    Last week they were ahead 32 to 31 or something. This week 
we think we are ahead with Starbucks announcing that the old 
Sears store that is now Starbucks center is both the oldest and 
largest building to achieve a LEED gold certification. We are 
really proud of that.
    We think we are ahead of Portland today, but check back 
next week.
    Mr. Walden. How are the Huskies doing against the Ducks?
    Mayor Nickels. I'm not much of a basketball fan.
    The thing that is interesting is that the original LEED 
buildings were government buildings, our City Hall, our 
libraries. We are building a fire station--and now the market 
is demanding that private buildings be LEED certified.
    We are having a lot of new residential buildings built in 
our downtown, so we are seeing architectural firms, engineering 
firms, we are seeing companies that install and create the 
technology that allows you to achieve that certification being 
created here.
    We see the future for Seattle as being the green building 
capital of America. We see a lot of jobs in that.
    Mr. Dicks. Mayor Diaz, you have done a lot in Miami about 
this.
    Mayor Diaz. Sure. Actually, I believe it's something you 
asked earlier about the surprises--what are the best surprises 
we've had. One of the best surprises I think we've had is 
precisely how our business community has stepped up.
    This is a business issue, and in our case, at least, we've 
had the private sector be an active partner of everything that 
we've done in Miami, and with respect to LEED buildings, when 
we got past that little resistance in terms of knowledge, the 
response has been overwhelming.
    As I said in my statement earlier, we are looking at having 
gone from zero to over 20 buildings in one year--in a year, and 
as Mayor Nickels said, the market is now demanding it.
    Not only are the owners of the buildings, developers of 
those buildings saving a lot of money in energy costs but also 
just a quality of life for those people that are working in the 
building.
    It's been documented that it reduces absenteeism, people 
get sick less often, and it's just a wonderful experience for 
people to work in those buildings, so the market is demanding 
it.
    Now it's kind of like--you know, you guys here have a 
Starbucks in every corner, so if the developer over there is 
building a green building and I'm about to start one over 
there, I better make sure that I am at that same standard or 
else people are going to run over there to lease over there.
    The economic incentive is there for the business community 
and for developers to be a part of this effort.
    Mayor Palmer. I would like to talk about the housing aspect 
of this as well.
    In our city of Trenton, we are rehabilitating thousands of 
homes for working families, and what you don't want to see--
because a lot of them are older brownstones, and of course the 
energy costs could be more than a mortgage once you make it 
affordable for working families.
    We have seen, working with our contractors, even our 
architects, that we build green so that you can reduce those 
costs, whether it's doubling up windows, whether it's even 
putting gardens on top of roofs.
    I mean, you know how hot it will get on tar roofs and the 
cost of your air conditioning at that time.
    If you put a garden on top of a roof, it will reduce your 
energy costs dramatically, which will make you able to live in 
a house that you buy, and I think this is very important.
    Not only is it reducing the energy costs of the homeowner, 
making it affordable and sustainable, but it's also helping 
create jobs in a market that didn't exist.
    Those are the kinds of things that can be and will be done 
as we move forward on this issue.
    Mr. Dicks. What about health issues?
    Mayor Palmer. I'm so glad you brought that up.
    I mean, if we do nothing--I know we talked about--and the 
economy is important and we continue to grow it, but what about 
our health? What about the--our health?
    We are in areas especially--and there are a lot of low-
income areas, that this issue is also an environmental justice 
issue. Look at all the young people that have asthma, that have 
their inhalers walking around because they are around air that 
is polluted.
    We need to clean up our air and our environment, and 
especially as it relates to some of the people that live in 
some of the low income areas that are breathing this.
    We need to make sure that we have schools that are 
surrounding our inner cities that when buses are idling, that 
you have--that you retrofit those buses so you're not emitting 
all the CO<INF>2</INF> in the air that our families and people 
are breathing.
    Look at the cost that you fight and deal with every day on 
health care?
    All of this is related. Every bit of it is related.
    You can't just look at climate change in a vacuum. 
Everything is tied to one another as relates to our environment 
and the way we are going to do business.
    All these are very important issues that some you can 
quantify, others you may not be able to quantify, but certainly 
we can't be in disagreement if we want a healthier and cleaner 
planet.
    Mr. McDermott. The alternative production of energy is 
always the sexy issue, the wind and the solar and all the rest, 
but it's my belief that the conservation issue is really the 
quickest and fastest way to really get some change going in the 
society.
    We put a lot of bonds in our bill from the House, and 
you're talking about a bond fund for the country's cities.
    One of the arguments that we listened to constantly on the 
Ways and Means Committee was ``Well, the mayors will just waste 
the money. If we give them $50 million or $100 million worth of 
bonds, they'll just waste it. Look at CDBG. What did they do 
with all that money?''
    I'd like to hear what you'd do with 100 million bucks if it 
was available on the 1st of March and you could begin planning 
in your cities for where you would put that money.
    Any one of you. Give me some ammunition.
    Mayor Nickels. Well, Congressman, we actually have taken 
the time to write a plan.
    We always do that in Seattle, and then we debate the plan 
for a long time before we adopt it.
    Mr. Dicks. And then you tear it up.
    Mayor Nickels. We brought together business leaders, 
environmental leaders, and civil leaders and looked at what we 
could do to reduce our carbon footprint, increase our 
efficiency, and improve the environment, and so we've already 
got it laid out.
    We would----
    Mr. McDermott. Do specifics.
    Mayor Nickels. We would work on the transportation system.
    We are about to open a new streetcar in Seattle connecting 
our downtown with the Fred Hutchinson Cancer Research Center. 
That will take cars off of the street. It will move people from 
diesel buses to an electric nonpolluting vehicle, so we would 
look at improvements in our transportation system, like 
streetcars.
    Secondly, I think we would invest more in energy 
conservation and water conservation, probably in multifamily 
buildings and residential buildings.
    Mayor Palmer. I don't want to be redundant. We would do the 
same, but we would develop our plan.
    Just so you know, in real dollars and cents, if this were 
enacted, my city of Trenton would receive $633,566.54.
    Mr. McDermott. Not that you're waiting for it.
    Mayor Palmer. We would use it--we are putting together our 
plan for our carbon footprint but also looking at ways in which 
we can do education, job training, look at retrofitting of 
buildings, and those kinds of things that would help our 
economy.
    The other thing I want to say too--you know, as mayors, we 
hear this all the time, ``CDBG, what are you doing with the 
money? You are wasting the money.'' You know, I don't know what 
other cities are doing, but I can tell you the U.S. Conference 
of Mayors, we know what to do with the money. We help millions 
of Americans each and every day. They are almost like urban 
myths anymore.
    You know, you look at Iraq. You want to talk about where's 
the money going, nobody questions Halliburton with all of that, 
but they question the mayors that we each and every day fight 
for the citizens of our community and without a partner in 
federal government. You wouldn't have daycare centers, senior 
citizen buildings, and those kinds of things.
    What we're asking for is not a handout. We want a partner, 
and what we're also--we know there's accountability in this 
bill. We want to be held accountable for the results. We want 
to show what we are going to do, and it's in the bill that you 
have. ``Show us what you have done in order to reduce that.''
    I think that we spend a lot of time on demonizing. We need 
to say, ``Let's work together. Let's get the mayors who are 
doing this''--you know, if you want to talk about saving money, 
the mayors are already doing this.
    The governors, they are following our lead, as they usually 
do, but the mayors are actually doing this, so even if--look at 
the bottom line. If you are going to put money into something, 
who is doing it rather than who's talking about doing it?
    The mayors have shown--Mayor Diaz, Mayor Bloomberg, Mayor 
Daley, Mayor Diaz, and hundreds of other mayors, we're already 
doing it.
    Give us the opportunity to show you what will work, and 
it's the best, quite frankly, investment we could ever make for 
our country.
    Mayor Diaz. I would add to what they said, and that is, I 
think, the question that has come from the members, and 
particularly with the cities that are not as far advanced in 
this process, is creating measurements, going through an audit 
process, creating standards, something that we can measure, 
something that we can make sure that that money--you know, 
what's the problem, identify it on day one, and what strategies 
are you going to have to implement that and then be able to 
test against the problem on day one.
    I think that's--I think that's essential because that's how 
we all know we're spending the money wisely.
    Mr. McDermott. What would you do with new money?
    Mayor Diaz. What would I do with new money? I think I would 
work primarily in establishing a lot of these audits, 
particularly at the single family level, weatherization 
programs for some of our residents, particularly the low-income 
residents in our community who are really challenged.
    If I'm--as President Palmer said, if we are going to a lot 
of low-income residents, and we are saying, ``If you do these 
certain things, you will reduce your energy costs and therefore 
reduce your greenhouse gas emissions,'' et cetera, et cetera, 
``It's all fine and dandy, but I can't afford it,'' and so I 
think that's a challenge that all of us have at the local level 
to really have an impact in--especially in neighborhoods that 
need it but at the same time in so many of our--in what is 
really a large part of the emissions that are being generated 
in some of our cities.
    Mr. McDermott. I can understand that. I did the energy 
audit on my house to put solar paneling on it, and it would 
cost me $24,000, and I would get my money back, at my present 
usage, in 21 years because I'm not using enough energy, so I 
understand the economics of it are very difficult and to help 
the lower income people.
    Mayor Nickels. One of the things that you ought to look at, 
and it's one of the things that President Clinton mentioned and 
also Mayor Tom Bates of Berkeley, California would be to create 
a financing mechanism so that instead of having to take out a 
consumer loan where you would have to pay the solar panels off 
in three years, you would take out a financing mechanism that 
would take the savings that you have and dedicate those savings 
to paying off a loan over a longer period of time.
    You wouldn't pay anything if you got no savings, but you 
would do that audit that would demonstrate what the savings are 
so that the lender would have a guarantee of a repayment.
    Mayor Bloomberg. Solar panels are one thing. Some parts of 
the country don't get a lot of sunlight where it really makes a 
lot of sense, but if you would just convert the light bulbs in 
your house to compact fluorescent light bulbs, the payback is 
within a year, and you'll save $100 per light bulb over the 
life of the bulb.
    I was talking to Lee Scott the other day who is the 
chairman of Wal-Mart. They have taken on the objective of 
selling hundreds of millions of these compact fluorescent 
bulbs.
    He said they've sold well over 100 million of them, and 
that reduces the need for one and a half coal-fired plants in 
this country. That's one thing, and that's most people still 
going nowhere near converting their houses, so there are lots 
of things that you can do in your house with a payback that's 
quick enough and the investment is small enough that all of us 
can do it.
    Mr. Inslee. I just want to note the Capitol dome is going 
to have efficient lighting, the top of the Capitol dome.
    We had a little contrary note about governors. I thought it 
was appropriate to defend Governor Schwarzenegger who is doing 
a great job on energy efficiency, Governor Christine Gregoire 
who has helped us in the state of Washington, Governor Ted 
Strickland in Ohio--we have some great governors too.
    We are going to have a lightening round, second round. 
Let's try to confine it to four minutes, and we'll start with 
Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I'm feeling really guilty right now looking up at no 
fluorescent light bulbs and all these lights on on a sunny day 
in Seattle, and I'm wondering if we could do our part and 
conserve by turning those down a little bit.
    I invested in a hybrid this year, bought a Prius, traded in 
my old Chrysler, doubled or more my gas mileage, but I was 
disturbed when I picked up a paper the other day, and they had 
a chart in there about your return on investment, and because 
Toyota has been so successful selling those, they no longer 
give the tax credit to the buyer, so now it takes 17.9 years to 
recover the difference between a Toyota Prius and another 
vehicle that's standard, but the Ford Escape, which I'm looking 
at for out here in Oregon, it's 3.1 years return on your 
investment, and would double the mileage I'm getting on my 
current four-wheel drive, which I need to get up to ski on 
Mount Hood, which is clearly the best skiing in the Northwest, 
and I encourage you all to come ski there.
    I wanted to get back to this issue of the international 
effect, and by no means are we saying we shouldn't do 
everything we can here--and I'm going through as the light 
bulbs go out and putting in the fluorescents, and I'm trying to 
do those things. I've supported efforts to go to the LED 
technology, when it's available, which will make fluorescents 
look like incandescents in contrast in terms of energy 
efficiency, so we need to encourage that.
    We need to do these things for our future and snow pack and 
the future of the planet, but what do we do to encourage 
foreign nations to get involved?
    I spent an hour with the lead negotiator for China in 
former Speaker Hastert's office, and it was pretty clear to me, 
they are moving ahead on a new coal fire plant, 4 or 500 
megawatts per week, every week this year, as well as other 
energy-producing sources.
    They are doing that because they are getting a lot of jobs 
over there, and they are using dirty coal.
    We had a group of members that was over there that toured a 
coal plant that when they talked to them, they said, on the 
scrubbers they have today, not for sequestration, just 
scrubbing out the sulfur dome, they only turn it on when they 
know the inspectors are coming because it reduces the 
efficiency of the plant.
    This is--if there was ever a global problem, this is it, 
and while we do our part--I struggle with this piece of 
potentially losing jobs here--not necessarily creating the 
green jobs. I think there is a wonderful opportunity to do 
that, don't get me wrong, but I also know manufacturing jobs 
are going to chase cheap power, cheap natural gas, cheap labor.
    The ships that come in and out of here, as we watch, are 
bringing a lot of goods this way and not many going that way, 
as many as we'd like, and so I struggle with this issue of 
letting China off the hook or letting India off the hook.
    What do you think we should do, not diminishing what we are 
doing in this country or what you are doing as mayors, but what 
do we do internationally to try to bring the big polluters in 
who never were going to be part of Kyoto and who have made it 
clear, in personal discussions, they have no intention of 
making major changes.
    In fact, basically we were told we polluted when we were 
industrializing, and it's their turn now and it's our turn to 
clean up. I don't think it's anybody's turn to pollute, by the 
way.
    Suggestions, Mayor?
    Mayor Bloomberg. Make--continuing to pollute, to teach them 
a lesson, just doesn't make any sense to me, and that's the 
strategy.
    Mr. Walden. You're missing my point. No, no, no.
    Mayor Bloomberg. It just doesn't make any sense to me.
    I don't know how to make them do it. You can only hope that 
they will look at America and say, ``America is so good. I want 
to be like them.''
    We are America, we shouldn't be walking away. We should 
invest in technology, clean our air, and hopefully they will 
follow. Short of that, I don't think there's any way. You are 
pushing on a string.
    The only way they are going to do it is if they see it is 
in their interest, and the only way they are going to see it's 
in their interest is if we show that we can do it.
    This is a country--think about what we came from, what we 
used to do. We used to roll up our sleeves and make it better, 
and now all we're doing is we're complaining, ``The other guy's 
not doing it, so we are not going to do it.''
    That doesn't make any sense to me at all.
    Mr. Walden. That's not what I said. You missed the point.
    Mr. Inslee. I want to take a crack at answering Mr. 
Walden's very important question about China.
    What some of us believe is a vision on China is that we 
will take Ramgen Corporation's technology being developed in 
Mayor Nickels' city, which allows the compression of 
CO<INF>2</INF> so we might be able to burn coal cleanly, and 
sell it to China, use the Ausra solar thermal technology being 
installed in Florida with the first big contract for zero 
CO<INF>2</INF> solar thermal in Florida for about 200 
megawatts, and sell it to China, use the technology being 
developed in New Jersey, not too far from Trenton, and sell it 
to China.
    I just think our role and our destiny as a country is to 
develop these technologies and make China our biggest market 
ever, and I believe--that's just one member of Congress.
    We've been kind of lobbing softballs. I want to ask a hard 
question to you, if I can.
    We have passed a bill in the House for the first time 
having a requirement federally to require local communities to 
have building codes that answer a need for energy efficiency, 
and it's a pretty aggressive requirement. It essentially 
requires local communities to adopt building codes that will 
meet federal--what we have now for federal codes for LEED 
standards in federal building for private construction, 
including in the community, including public construction.
    Now, that bill, that requirement, as currently written, has 
no sanction associated with it. It says the communities will do 
this and cities will do that, but it doesn't have any sanction 
associated with it.
    Now, some have argued that we have to have some minor way 
to enforce that requirement, and we think it's necessary 
because not all mayors are as enlightened as the four at this 
table, not in every single city in the United States, and it is 
important to have a federal building code energy efficiency 
requirement.
    I would just ask for your views on that, whether that's a 
good idea and whether or not some enforcement mechanism is 
appropriate.
    Mayor Nickels. First, the Conference of Mayors has adopted 
a framework for this issue, and that's attached to my 
testimony, and one of the things that we suggest is that the 
federal government lead by example, so to the extent that the 
federal government has taken this on and is showing how it can 
work, I think that's great. I think that's a great first step, 
but often it's the opposite, it's that the federal government 
exempts itself and then puts requirements on states and cities.
    I think that there is a role for the federal government to 
set some standards in this area and many others, just as 
there's a role for the federal government in showing how things 
ought to be measured and then figure out how it should be paid 
for, whether it's a carbon tax or cap and trade system or what 
have you, so I think that's fair.
    I think that to the extent that you're talking about 
smaller jurisdictions in particular, there should be some 
resources to help them do that because it's a fairly technical 
matter to develop those codes and to implement those codes, so 
I think there should be not an unfair mandate that doesn't have 
some resources with it, but setting the standards and then 
enforcing the standards I think is fair game.
    Mr. Inslee. Mayor.
    Mayor Diaz. I would tend to agree.
    In fact, as I mentioned earlier, we are adopting our own 
certification standards locally, but I also agree with what 
Mayor Nickels said about the fact that even today cities are at 
different levels in terms of their expertise and their 
knowledge in this area, so I would recommend that there be some 
phasing in to allow cities to sort of catch up, at least 
intellectually, with the kinds of things that are necessary, 
and I can think of no better way to do that, by the way, than 
through the CDBG program.
    Mr. Inslee. We'll work on that.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Congressman Dicks and I have been in Congress longer than 
any of our colleagues up here, and I remember in my first year 
in Congress, President Carter rammed through a repeal of the 
revenue sharing program to states and municipalities, and that 
caused a considerable financial dislocation when the revenue 
sharing money ended.
    Let me ask each of you a question, which you probably can 
answer ``yes'' or ``no.''
    If the federal money in the block grant program were not 
available, would you continue doing what you are advocating in 
your testimony?
    Mayor Bloomberg. Yes.
    Mayor Palmer. You just want a ``yes'' or ``no''? It's yes.
    As mayors, we can't afford not to. It's important, but at 
what cost?
    You know, we have to do it, but then what gets cut? We cut 
out resources to a library, resources to a senior citizen 
center, and then you get to the bone and you cut police and 
fire because as a result of it, you have to do something.
    I mean, there's only so much----
    Mr. Sensenbrenner. We face the same thing with our PAYGO 
rules here. If we plug something up, we have to offset 
something elsewhere.
    Mayor Palmer. I don't know about PAYGO, but I know where we 
need to go, and that's----
    Mayor Diaz. The answer would be yes.
    Mayor Nickels. We would continue what we are doing. What 
the federal money would allow us to do is bring it up to a 
larger scale.
    Mr. Dicks. We are very proud of the fact that we have 728 
mayors signed up. Well, what about the rest?
    That means three-fourths of the mayors are not signed up.
    Why is that? What is the problem?
    Is it a lack of understanding or is it a lack of resources?
    In other words, is it the richer cities, the well-off 
cities that can do this?
    What's the reason for people not doing it?
    Mayor Nickels. It's a wide variety of cities that have 
signed on, and that's been a very interesting part of it is as 
different parts of the country have experienced extreme weather 
events and they kind of--the bulb goes off, they have that aha 
moment, we see cities begin to sign on.
    I wouldn't characterize cities as being the richer cities 
or the poor--they literally represent the gamut of cities in 
America.
    Politically, it's still a difficult issue in many parts of 
the country, and so I think that there's probably a political 
factor for some mayors not to sign on.
    I think for others, it's a question of ``What does it mean? 
How do I measure my emissions? What do I do in order to reduce 
them and how do I know when I've succeeded?''
    That's the question we get even from the mayors who have 
signed on and providing the technical help to them to be able 
to answer that and be accountable to their constituents when 
they make that promise is a big part of the effort that we're--
--
    Mr. Dicks. You have reached out, obviously, to the whole 
country here, but what about in our own region? Is there an 
effort for Seattle and King County, which have been the leaders 
on this, to reach out to, let's say, Tacoma and Bremerton----
    Mayor Nickels. Yes, both Tacoma and Bremerton in the Sixth 
Congressional District have signed on, and Mayor Baarsma was an 
active participant in the summit that we had.
    Spokane, the largest city in eastern Washington has signed 
on, and, in fact, 30 cities in Washington state have signed on, 
and many of those mayors were here for the last two days to 
learn about ways to keep that promise.
    Mr. Dicks. But maybe--Mayor Palmer, you are the president 
of the organization. Is there an active effort to continue to 
try to get mayors to consider this and to join this effort?
    Mayor Palmer. Absolutely.
    If you think of where we were--first and foremost, when 
Mayor Nickels started, he said his goal was 141 from the amount 
of nations that signed on, and the more you talked about, the 
more people understood this. We are at 728. We just picked up 
18 today.
    I know in the city of--in the state of New Jersey what we 
are going to do is even be more active as it relates to this 
issue once you can explain it to the elected officials.
    I think what we are doing now as an organization is 
continuing to educate not only our public but the people, 
working with the business community because of course you have 
to look at the bottom line, but I believe that if we put our 
great minds together, we can find out that we can be energy 
efficient and be competitive as relates to our economy. We just 
have to figure out how to do it.
    Of course China and them are not going to do it until they 
can see how you make money with your technology and doing that, 
but we are going to continue.
    Next year at this time, we will probably have another 728 
and continue to grow.
    Mr. Dicks. Are the National Association of Manufacturers, 
companies like that, of that magnitude, are they involved? Do 
they help in this cause of yours?
    Mayor Palmer. Yes. As a matter of fact, this week we 
announced a partnership with members of our business council, 
our climate protection council made up of businesses that have 
started.
    TCP, Wal-Mart, DuPont and others are a part of it to come 
up with a strategy on how do we make this competitive and get 
the word out.
    We are going to continue to do this, but I can tell you 
that if this committee passes the energy environment block 
grant and we begin to see true success stories at work and what 
it's about, we'll have many more mayors involved.
    Some mayors say, ``My town is so small, does it matter to 
me,'' but it matters to all of us, and we are going to continue 
to push that message.
    Mayor Diaz. I would just add that I believe that the 
universe we are talking about in terms of membership cities is 
1,100, of cities over 30,000, so 728 out of 1,100 is a pretty 
good percentage.
    I would also argue that as far as I know, reading history, 
which I love to do, at no time in our history do I remember 
over 700 mayors coming together agreeing on anything, all 
parties, all cities, all areas.
    Mr. McDermott. I couldn't help as Mayor Bloomberg was 
talking at lunch today thinking about the ``Yes, but,'' ``Yes, 
but there's politics.''
    If you were going to be the energy secretary for the next 
President of the United States, what would you tell him or her 
to do? How would you overcome the power of coal in this country 
and the power of oil?
    We have huge deposits in this country, enough coal to 
provide energy for the next 600 years, if we don't consider the 
environment.
    So what would you say to the next President?
    Mayor Bloomberg. I think in the end the great challenge is 
to convince the public and companies that it is in their own 
interests to clean the air, to pollute less, to use less 
energy, and I don't think that there are a lot of companies 
that have sent their jobs overseas just because of the price of 
oil or the price of coal, the price of energy, but we have to--
in the end--there's two things that matter to people: Jobs and 
housing, ``My job, my house.''
    If you can convince people that they can save money or that 
their kids will breathe better air or that their products will 
be more attractive or that they'll be able to get better 
employees by being energy efficient, then people will do it.
    In the end, government can only do so much.
    This is a capitalistic country, it's the greatest 
strength--the marketplace is the greatest strength of America, 
and you are seeing companies do things when it is in their 
interest or individuals doing it.
    In fact, I can tell you in New York City, building green 
has become fashionable because it lets you rent your space for 
more money and it lets you run your building cheaper not 
because I've beat them over the head and said, ``You should do 
this for saving the planet 50 years from now''----
    Mr. McDermott. If your belief is that it's a capitalist 
system and people will respond to incentives, what would you 
tell the President to send up to the Congress for changes in 
the tax code to make this thing work, besides the $10 or $20 a 
ton of uncarbon? Anything else?
    Mayor Bloomberg. Yeah. I would certainly not subsidize corn 
ethanol and tariff against sugar ethanol. It makes absolutely 
no sense or if I was going to do it, I wouldn't do it in the 
energy side. I would do it in the agricultural side where it 
may very well make good policy.
    I am not an expert on agriculture, but when it comes to 
energy, this is just not the most efficient way to do things.
    As a matter of fact, there are some studies that say that 
we pollute more by doing it.
    Mr. McDermott. Any other advice that you would give the 
President?
    Mayor Nickels. If the President asked my advice, I would 
tell her that the--I would quote the price of oil on her first 
day as President and suggest that it would be no lower on her 
last day of Presidency and, in fact, likely to be much higher 
and that we have the opportunity to create jobs and create a 
new economy in this country by finding a different way to power 
our buildings and our industries and to run our transportation 
and that that research and development effort and 
implementation effort would be the, I think, most important 
undertaking that the federal government would have made, 
certainly since we decided to send a person to the moon, and I 
think probably ever.
    Mr. McDermott. I would just say to my colleague from 
Wisconsin, the Ways and Means Committee did put out the R&D tax 
credit out of the committee on Thursday, so--on Wednesday, so 
it will be on its way to the floor shortly.
    Mr. Inslee. Before we close, I want to recognize Mayor 
Rosemary Ives from the great city of Redmond who has been a 
great leader in bicycle transportation and public 
transportation. Thank you for your work, Mayor. We really 
appreciate a great career in that.
    I wonder if we can ask our witnesses if they want to make a 
closing one-minute comment.
    What would you like us to take back to D.C.?
    Mayor Nickels. First, I would like to recognize the fact 
that there are a number of mayors in the audience, and maybe 
ask them if they would be willing to stand and be recognized 
just so you know there are other parts of the country 
represented.
    [Mayors stand.]
    Mayor Nickels. Thank you so much for holding this hearing.
    The fact that we are having honest and direct conversations 
around this issue is refreshing and I think very healthy.
    There are different ways to go about this issue, but the 
recognition that global warming is happening, that it is human 
caused, and that we have a moral responsibility to step up and 
provide leadership I think is the key thing.
    I would like you to take that back, and then we will be 
happy to work with you to find the specific policy directions 
that will best suit our country.
    Mayor Diaz. I will conclude by saying two things. Number 
one, I think there was a poll released in the last few days 
that showed that to 84 percent of Americans, this is a 
mainstream issue. It's not a tree-hugger issue anymore.
    Eighty-four percent of Americans are saying this should be 
a top priority issue for the next President of the United 
States of America.
    Number two, there was a lot of discussion here about cost.
    I think the greatest cost is the fact that we are draining 
the resources that we have accustomed ourselves to living under 
that our children maybe, our grandchildren, our great-children 
may not have, and we have an obligation to make sure that we 
don't continue to drain the earth's resources.
    There was a United Nations study that was just released 
over the last few days. 1,400 scientists came together saying 
that what we have done to the natural resources of this world 
over the last 20 years is ridiculous and what we are about to 
continue doing, if we don't stop, is going to make things even 
worse.
    With regard to the international, I would say that the--in 
Miami and in Florida, Governor Crist is also joining other 
governors in being a great leader of this movement.
    We have signed an agreement with the national government. 
It's just, unfortunately, not ours. It's the national 
governments of Germany and the United Kingdom, and they are 
making every effort to work with the state of Florida to create 
green jobs, to show us how they have done it in those countries 
and are doing it in Florida.
    We need to take the leadership. We can't--one thing for 
sure that I know--I don't know quite how to get there, but I 
know how we don't get there. There's no way we can ever 
convince China and India to be a part of this process if we are 
not a part of it, and that's what our partners from the UK and 
our partners from up in Germany tell us as well.
    Mayor Palmer. I would be redundant. I don't want to take 
any more of your time. I just want to thank you on behalf of 
the U.S. Conference of Mayors and Executive Director Tom 
Cochran and staff for coming and having this field hearing. It 
is very encouraging to all of us.
    I just want to say that we can do this. We can really do 
this.
    There is disagreement. We can work through those. Nothing 
is impossible.
    We have got the greatest nation in the world in innovation, 
a capitalistic system.
    We can do that. We just need to bring everybody to the 
table.
    How do you make money off this? How can we get a job? How 
can my kids breathe clean air? We can do this, but our citizens 
want to see us work together and show the leadership, and I 
think that we are doing it as mayors, and I really truly 
believe that you are doing this by coming here and putting 
forth part of your energy environment block grant as well, so I 
want to wish you all to have a great weekend and we really 
appreciate--it's a Friday, and I know how you have families, 
and I really appreciate you being here and all of my colleagues 
as well.
    Mayor Bloomberg. Invest in R&D, open the borders because we 
are driving our jobs to China. They aren't going because of 
energy. They are going because we are not letting the best 
scientists come here.
    You talked about science being used overseas. It's going to 
start being developed overseas. It is very scary what is 
happening to science, to education, to medicine.
    The rest of the world is going after the best and the 
brightest while we are trying to keep them out, and our energy 
policy should be set by what's best for America not by some 
misguided fear that somebody else may be polluting more. We 
have got to take care of ourselves first and lead by example.
    Thank you very much.
    Mr. Inslee. As a closing note, and on a personal note, I 
want to thank all the mayors here who are engaged in this 
effort.
    If you look out on the Sound, it is a pretty nice place to 
grow up, and I was born here. Your efforts in whatever town you 
are in is helping the Evergreen State stay evergreen.
    I want to personally thank you and tell you that I've been 
watching your efforts with great personal frustration to watch 
your achievements and the lack of achievements we have had in 
Congress, and I just want to report to you that the calvary is 
on the way, okay?
    We are about ready to arrive, and I will tell you one 
story.
    March 21st--25th, 1961, John Kennedy goes to the House, and 
he says, ``We are going to go to the moon in ten years and 
bring him back safely,'' and the NASA director James Webb 
turned to his assistant, Jim Gilruth, and he said, ``Jim, can 
we actually do this,'' and Gilruth said, ``Yes, absolutely. We 
have to,'' and I think that's the message today.
    Thank you very much for all your work.
    [Whereupon, at 4:33 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
